No. 20IN THE

Supreme Court of the United States
JOHN WAYNE COLLINS,
Petitioner,
v.
JAMES DAVID GREEN, WARDEN
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE
I, Edward Williams, a member of the bar of this Court, hereby certify that, on
this 17th day of May, 2021, all parties required to be served have been served the
Petition for a Writ of Certiorari in this matter by overnight courier to the addresses
below.
CHAD MEREDITH
Solicitor General
COMMONWEALTH OF KENTUCKY
OFFICE OF THE SOLICITOR GENERAL
700 Capital Avenue, Suite 118
Frankfort, KY 40601
(502) 696-5300
Chad.Meredith@ky.gov

DANIEL CAMERON
Attorney General of Kentucky
JAMES HAVEY
Assistant Attorney General
OFFICE OF ATTORNEY GENERAL OF KENTUCKY
OFFICE OF CRIMINAL APPEALS
1024 Capital Center Drive, Suite 200
Frankfort, KY 40601
(502) 696-5342
James.Havey@ky.gov

EDWARD WILLIAMS
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
ed.wiilliams@wilmerhale.com

